U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ryan Randall Gilbertson v. United States, No. 20-860
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 23,
2020. The Court called for a response to the petition on February 11, 2021. The government’s
response is now due, after one extension, on April 14, 2021. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including May 14, 2021, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Solicitor General
cc:

See Attached Service List

20-0860
GILBERTSON, RYAN R.
USA

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,WHARTON &
GARRISON LLP
2001 K STREET, NW
WASHINGTON, DC 20006
202-223-7300
KSHANMUGAM@PAULWEISS.COM

